Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     CMS OVERSIGHT OF 

   SHORT-TERM ACUTE CARE 

  NONACCREDITED HOSPITALS





                    Daniel R. Levinson

                    Inspector General 


                      August 2005

                     OEI-01-04-00020

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.


Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                           S U M M A R Y                                              



                  OBJECTIVE
                  To assess the extent to which the frequency of short-term acute care
                  nonaccredited hospital surveys has changed since the 1999 Office of
                  Inspector General (OIG) reports on hospital oversight.


                  BACKGROUND
                  This report serves as a followup to a series of reports released by OIG in
                  1999 on the external review of quality oversight in hospitals. One of
                  those reports found that a large and growing number of short-term
                  acute care nonaccredited hospitals had not been surveyed within
                  3 years. In its response, the Centers for Medicare & Medicaid Services
                  (CMS) committed to surveying all nonaccredited hospitals with the
                  same frequency as accredited hospitals, every 3 years, and to obtaining
                  the funds necessary to establish a more frequent survey cycle.

                  To receive Medicare reimbursement, hospitals must demonstrate to
                  CMS their initial and ongoing ability to meet a set of minimum quality
                  and safety standards, referred to as conditions of participation.
                  Hospitals can do this in two ways: by paying for accreditation or by
                  receiving certification from the State survey and certification agencies
                  at no charge. While about 83 percent of hospitals choose accreditation,
                  about 17 percent of the nation’s 4,020 hospitals are nonaccredited. CMS
                  oversees nonaccredited hospitals through routine certification surveys
                  and complaint (allegation) surveys conducted by the States. In this
                  report, we focused on short-term acute care nonaccredited hospitals,
                  which constitute 72 percent of all nonaccredited hospitals.

                  We based our assessment of survey and complaint data on two sources
                  of data: the Online Survey Certification and Reporting System data and
                  CMS’s State Survey and Certification Budget Call Letters. The Budget
                  Call Letters establish the priority for survey activities for all types of
                  facilities for the States. The States use the information to prepare their
                  yearly budgets.


                  FINDINGS
                  In 2003, States surveyed 79 percent of short-term acute care
                  nonaccredited hospitals within 3 years compared to 50 percent in
                  1997. The percent of short-term acute care nonaccredited hospitals
                  surveyed within 3 years grew from 49 percent in 2001 to 62 percent in
                  2002 and 79 percent in 2003.

OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   i
E X E C U T I V E             S U            M M A R Y


                   However, the national annual survey rate is too low to sustain this
                   progress. The national annual survey rate reflects the number of
                   short-term acute care nonaccredited hospitals surveyed each year
                   divided by the total number of such hospitals in all 50 States in each
                   fiscal year. To ensure that all short-term acute care nonaccredited
                   hospitals are surveyed once every 3 years, at least 33 percent of
                   hospitals should be surveyed each year over a 3-year period, assuming
                   that the number of hospitals does not change and no hospital is
                   surveyed more than once. In 2001, States surveyed 25 percent of short-
                   term acute care nonaccredited hospitals nationally. The national
                   annual survey rate grew to 28 percent in 2002. However, States
                   surveyed only 21 percent of such hospitals in 2003. Several factors
                   contributed to these declines in surveys for nonaccredited hospitals:
                     Conversions to critical access hospitals necessitated additional surveys by State
                     agencies. The number of nonaccredited hospitals decreased from
                     1,361 to 640 between 1997 and 2003. During this period, many
                     nonaccredited hospitals converted to critical access hospitals.
                     Between 2000 and 2003, the number of critical access hospitals
                     increased from 318 to 855. These conversions add more surveys to
                     States’ already full workload.
                     Other surveys take priority over nonaccredited hospital surveys. Other
                     survey priorities can limit the attention and resources that States can
                     spend on surveys of nonaccredited hospitals. Complaint surveys,
                     which are limited to investigating the conditions of participation in
                     question, require an onsite survey at both accredited and
                     nonaccredited hospitals. These surveys grew 79 percent, from 2,079 to
                     3,721 between 1997 and 2003. In addition, completing surveys at
                     facilities with legislatively mandated survey cycles, such as nursing
                     homes and home health agencies, is a higher priority than performing
                     surveys at nonaccredited hospitals.
                     Budget Call Letter Language. CMS committed to establishing a more
                     frequent survey cycle for nonaccredited hospitals so that they would
                     be surveyed with the same frequency as that established by the Joint
                     Commission on Accreditation of Healthcare Organizations for
                     accredited hospitals. Rather than establishing a 3-year survey cycle
                     for nonaccredited hospitals, the CMS Budget Call Letter calls for
                     States to survey 33 percent of their nonaccredited hospitals annually.
                     Though on the surface it might appear that this language is
                     equivalent to a 3-year survey cycle, this is not the case. By repeatedly


 OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   ii
E X E C U T I V E             S U            M M A R Y


                     surveying some hospitals and not surveying others, which may be
                     necessary to ensure safety and quality, States can consistently meet
                     the 33 percent annual survey rate for their nonaccredited hospitals,
                     but not survey all nonaccredited hospitals within 3 years.


                   SUMMARY
                   Certification and complaint surveys remain the principal way that CMS
                   and State agencies can ascertain whether nonaccredited hospitals meet
                   Federal health, safety, and program standards. While the percent of
                   short-term acute care nonaccredited hospitals surveyed within 3 years
                   has increased, the national annual survey rate has dropped and is now
                   too low to sustain this progress. To ensure that all short-term acute
                   care nonaccredited hospitals are surveyed once every 3 years, at least 33
                   percent of hospitals should be surveyed each year over a 3-year period,
                   assuming that the number of hospitals does not change and no hospital
                   is surveyed more than once.


                   AGENCY COMMENTS
                   CMS agreed that recent survey rates make sustained improvement in
                   the percent of short-term acute care nonaccredited hospitals surveyed
                   within 3 years uncertain. It further noted that it has additional survey
                   responsibilities and that resources are limited.

                   CMS identified adjustments it will make in response to our report.
                   First, it will lower the priority of its earlier commitment to survey
                   nonaccredited hospitals once every 3 years. It will also create a new,
                   higher priority goal of surveying nonaccredited hospitals an average of
                   every 4.5 years. Further, it will require States to target certain
                   hospitals that are more likely to have systemic quality problems for
                   more frequent surveys. Finally, it will add a performance standard for
                   States to ensure that the top priority survey frequencies are met. For
                   CMS’s complete comments, see page 11 of this report.


                   OIG RESPONSE
                   We are pleased that CMS agrees with our summary that although the
                   percentage of short-term acute care nonaccredited hospitals surveyed
                   within 3 years has improved, recent national annual survey rates raise
                   concern that the improvement may not be sustainable. However, CMS
                   also proposes changes to the survey commitment it made in response to
                   OIG’s previous report (that it survey nonaccredited hospitals every

 OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   iii
E X E C U T I V E             S U            M M A R Y


                   3 years, which is the same frequency as that of the Joint Commission on
                   Accreditation of Healthcare Organizations).

                   We acknowledge that CMS faces resource limitations. However, we
                   remain concerned that its adjustments could result in some
                   nonaccredited hospitals operating without a survey for considerable
                   lengths of time. Because CMS proposes an average of 4.5 years between
                   surveys, by definition the gap between surveys at some nonaccredited
                   hospitals will exceed that length of time, and some could exceed it by a
                   considerable number of years.

                   At the same time, we appreciate the role that targeting some hospitals
                   for more frequent surveys can serve in protecting Medicare
                   beneficiaries. Furthermore, we also appreciate CMS’s addition of
                   performance standards for States.




 OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   iv
Δ   T A B L E                O F                C O N T E N T S                                                




         E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



         I N T R O D U C T I O N ............................................................. 1 




         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                        Percent of nonaccredited hospitals surveyed increased . . . . . . . . . . . . . . 5 


                        However, annual survey rate too low to sustain progress . . . . . . . . . . . 5 




         S U M M A R Y ..................................................................... 9 



         A G E N C Y C O M M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 





         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                        A: Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                        B: Critical access hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 



         E N D N O T E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Δ         I N T R O D U C T I O N                                               



                  OBJECTIVE
                  To assess the extent to which the frequency of short-term acute care
                  nonaccredited hospital surveys has changed since the 1999 Office of
                  Inspector General (OIG) reports on hospital oversight.


                  BACKGROUND
                  In 1999, OIG released a series of reports on the external review of
                  quality oversight in hospitals. This report serves as a followup to one of
                  the reports in that series entitled “The External Review of Hospital
                  Quality: The Role of Medicare Certification,” OEI-01-97-00052. Since
                  that series, increasing attention has been paid to the importance of
                  assuring safety and quality in hospital care. In 1999, the Institute of
                  Medicine released the report, “To Err is Human,” in which it estimated
                  that as many as 98,000 patients die each year from medical errors that
                  occur in hospitals. A study released in 2003 found that medical injuries
                  that occurred during hospitalization pose a significant threat to length
                  of stay and increased medical expenses and mortality for patients.1 In
                  addition, a 2002 survey of hospital risk managers reports that
                  preventable harm is not consistently and thoroughly disclosed to
                  patients.2
                  Medicare Certification and Hospital Accreditation
                  For hospitals to receive Medicare reimbursement, they must
                  demonstrate to the Centers for Medicare & Medicaid Services (CMS)
                  their initial and ongoing ability to meet a set of minimum quality and
                  safety standards, referred to as the conditions of participation.3
                  Hospitals can choose one of two ways to do this. They can either pay for
                  accreditation by the Joint Commission on Accreditation of Healthcare
                  Organizations (hereafter referred to as Joint Commission) or the
                  American Osteopathic Association, or they can receive certification from
                  the State survey and certification agencies at no charge.4 Accrediting
                  organizations survey hospitals every 3 years.

                  While about 83 percent of the nation’s 4,020 acute care hospitals choose
                  accreditation, the remaining 17 percent are certified rather than
                  accredited. These hospitals are commonly referred to as nonaccredited
                  hospitals. Nonaccredited hospitals play an important role in the health
                  care system by providing care in areas that are often rural and remote.5
                  Nonaccredited hospitals demonstrate their compliance with conditions
                  of participation to CMS by receiving Medicare certification through

OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   1
I N T R O D        U C T     I O N


                    surveys that State agencies conduct under CMS funding and guidelines.
                    CMS does not charge hospitals for these surveys.6
                    Medicare Certification and Complaint Surveys
                    Certification and complaint surveys are CMS’s and the State agencies’
                    main tools to ascertain whether nonaccredited hospitals meet Federal
                    health, safety, and program standards. Because private accreditation
                    organizations do not oversee nonaccredited hospitals, CMS relies on
                    information from State surveys to determine that these hospitals are
                    qualified to serve Medicare patients. State agencies conduct these
                    surveys on behalf of CMS according to procedures outlined in CMS’s
                    State Operations Manual.7
                    State agencies use complaint (allegation) surveys as another mechanism
                    to oversee hospitals. State agencies are responsible for investigating
                    complaints at both accredited and nonaccredited hospitals. Complaints
                    may originate from a variety of sources including in person, by phone, in
                    writing, or from newspaper or magazine articles. Though certification
                    surveys are always announced, complaint surveys are unannounced.
                    Complaint surveys do not substitute for a standard survey. These
                    surveys cover only conditions of participation related to the complaint,
                    although surveyors may expand the scope if they find other unmet
                    conditions during their focused investigation.8
                    CMS State Survey and Certification Budget Call Letter
                    Each year CMS establishes the priority for survey and certification
                    activities for all types of facilities in its Budget Call Letter to the State
                    survey agencies. The States use that information to prepare their
                    yearly budget requests for survey and certification activities. Starting
                    with the 2001 Budget Call Letter, CMS increased the guidelines for the
                    percent of all nonaccredited hospitals that it expects States to survey
                    annually to 33 percent, up from 15 percent in 1997 and 11 percent in
                    2000.
                    Prior Work
                    In 1999, OIG released a series of reports that identified strengths and
                    limitations in CMS’s oversight of both accredited and nonaccredited
                    hospitals. One of these reports, which focused on short-term acute care
                    nonaccredited hospital certification, found that CMS and State agencies
                    placed a low priority on the large and growing backlog of nonaccredited
                    hospitals that had not been surveyed within 3 years. Although the
                    Joint Commission had established a period of 3 years between surveys
                    as the industry standard for accredited hospitals, CMS did not hold

 OEI-01-04-00020    CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   2
I N T R O D        U C T     I O N


                    nonaccredited hospitals to that standard. In 1997, 50 percent of short-
                    term acute care nonaccredited hospitals had not been surveyed within
                    3 years. At the time, CMS funded hospital survey activity at a level
                    that would allow for surveying nonaccredited hospitals once every
                    10 years. In contrast, the funding for home health agencies allowed for
                    surveying facilities once every 18 months. The reports found that most
                    of CMS’s hospital survey budget was dedicated to investigations of
                    complaints and serious incidents, which CMS considered a priority. The
                    reports also found that CMS did little to hold the State agencies
                    accountable for their performance in overseeing hospitals.

                    Based on this assessment, OIG recommended that CMS determine the
                    appropriate minimum cycle for conducting certification surveys of
                    nonaccredited hospitals. In a written response to the report, CMS
                    committed to surveying all nonaccredited hospitals as frequently as
                    accredited hospitals (every 3 years) as well as to obtaining the funds
                    necessary to establish a more frequent survey cycle.


                    METHODOLOGY
                    We based our analysis of certification and complaint surveys for
                    nonaccredited hospitals on two sources of data: the Online Survey
                    Certification and Reporting System (OSCAR) data and CMS’s State
                    Survey and Certification Budget Call Letters.
                    OSCAR Data. We analyzed OSCAR data, which compiles the results of
                    certification as well as complaint surveys for nonaccredited hospitals.
                    Our survey analysis is based on data downloaded in July 2004. The
                    OSCAR system, at any given time, only contains survey information for
                    each hospital’s four most recently conducted certification surveys. Data
                    are not retained for surveys conducted before the most recent four
                    surveys for each hospital. Because of this limitation, the data in the
                    OSCAR system available for this follow-up report lack the historical
                    survey data used for the original study. Therefore, we used the OSCAR
                    data pulled for the original inspection for years 1995, 1996, and 1997.

                    As with the previous inspection, this analysis looked only at short-term
                    acute care hospitals, which represent 72 percent of nonaccredited
                    hospitals. We did not include long-term care, rehabilitation, psychiatric
                    or childrens’ hospitals in our analysis so that we could make more
                    accurate comparisons to our previous work. Furthermore, we did no
                    analysis on the survey frequency of these other types of nonaccredited
                    hospitals. States are responsible for surveying all nonaccredited

 OEI-01-04-00020    CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   3
I N T R O D        U C T     I O N


                    hospitals in the Budget Call Letter, and we recognize this as a
                    limitation of our analysis.

                    Our analysis of hospital complaints is based on OSCAR data
                    downloaded in February 2004. These data reflect complaints for all
                    hospitals. Though not all complaints are entered into the OSCAR
                    system, the system does contain all complaints that require States to
                    conduct onsite surveys. For more detail on our OSCAR analysis, see
                    Appendix A.
                    Budget Call Letters. We reviewed the Budget Call Letters from 1999
                    through 2004.

                    We conducted this inspection in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency.




 OEI-01-04-00020    CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   4
F   I N D I N G        S
Δ       F I N D I N G S 




    In 2003, States surveyed 79 percent of                 Our previous report showed that
    short-term acute care nonaccredited                    the percentage of short-term acute
    hospitals within 3 years compared with                 care nonaccredited hospitals States
                                                           surveyed within 3 years fell from
    50 percent in 1997
                                                           72 to 50 percent between 1995 and
                      1997. In response to our original report, CMS committed to surveying
                      all nonaccredited hospitals every 3 years, the same frequency as that
                      established by the Joint Commission for accredited hospitals. In 2001,
                      States surveyed 49 percent of short-term acute care nonaccredited
                      hospitals within 3 years. This number grew to 62 percent in 2002, and
                      79 percent in 2003. Like our previous report, this analysis includes
                      only short-term acute care nonaccredited hospitals, which represent
                      72 percent of nonaccredited hospitals.

                      The remaining 21 percent of short-term acute care nonaccredited
                      hospitals that had not been surveyed within 3 years in 2003 lacked
                      routine oversight to ensure that they meet Federal health and safety
                      standards. Furthermore, 12 percent (80 hospitals) had not received a
                      State survey within 5 years. Of the 44 States with short-term acute
                      care nonaccredited hospitals in 2003, 29 States had at least 1 hospital
                      that had not been surveyed in 3 years and 1 State had as many as
                      21 hospitals not surveyed within a 3-year timeframe.



    However, the national annual survey rate is too 
               The national annual survey 

    low to sustain this progress                                    rate reflects the number of
                                                                    short-term acute care
                      nonaccredited hospitals surveyed each year divided by the total number
                      of such hospitals in all 50 States in each fiscal year. To ensure that all
                      short-term acute care nonaccredited hospitals are surveyed once every
                      3 years, at least 33 percent of hospitals should be surveyed each year
                      over a 3-year period, assuming that the number of hospitals does not
                      change and no hospital is surveyed more than once. In 2001, States
                      surveyed 25 percent of short-term acute care nonaccredited hospitals
                      nationally. The national annual survey rate grew to 28 percent in 2002.
                      However, States surveyed only 21 percent of such hospitals in 2003.
                      (See Table 1 on the following page.) Unless the national annual survey
                      rate for short-term acute care nonaccredited hospitals increases, States
                      will be unable to maintain a survey frequency that ensures that these
                      hospitals are surveyed once every 3 years.

    OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   5
F   I N D I N G              S 





                  Table 1. National Annual Survey Data: 2000-2003
                          Short-Term Acute Care Nonaccredited Hospitals
                                                                           2000                      2001                     2002      2003

                      National annual survey rates for
                      short-term acute care                                19%                       25%                      28%       21%
                      nonaccredited hospitals
                      National annual number of short-
                      term acute care nonaccredited                         196                       231                         212   134
                      hospital surveys
                      National number of short-term
                      acute care nonaccredited                            1,044                       908                         766   640
                      hospitals
                 Source: OIG analysis of OSCAR data and Budget Call Letters, 2004.



                           Several factors contributed to these declines in surveys for short-term
                           acute care nonaccredited hospitals:
                                Conversions to critical access hospitals necessitated additional
                                surveys by State agencies. The number of nonaccredited hospitals
                                decreased from 1,361 to 640 between 1997 and 2003. During this
                                period, many nonaccredited hospitals converted to critical access
                                hospitals. Participating States can grant critical access hospital
                                status to certain limited service rural hospitals that participate in
                                the Rural Hospital Flexibility Program, which the Balanced Budget
                                Act of 1997 established to promote health care delivery in rural
                                areas. (See Appendix B for more detailed information.) Incentives
                                exist for eligible nonaccredited hospitals to convert: cost-based
                                reimbursement from Medicare, rather than prospective payment;
                                partnerships with acute care hospitals for support and expansion of
                                services; and capital improvement costs included when determining
                                Medicare reimbursement.9 Between calendar years (CY)
                                2000 and 2003, the number of critical access hospitals increased
                                from 318 to 855.10 Likewise, the number of States with such
                                hospitals rose from 35 to 45 between CY 2000 and CY 2003.

                                These conversions add more surveys to States’ already full workload.
                                In the fiscal year (FY) 2001 Budget Call Letter, CMS calls for States
                                to survey 33 percent of approved critical access hospitals annually,
                                the same survey frequency as nonaccredited hospitals. CMS
                                considers critical access hospitals the same priority level as


    OEI-01-04-00020        CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S                6
F   I N D I N G 
S


                          nonaccredited hospitals. However, CMS also requires an initial
                          survey for each hospital that chooses to convert to a critical access
                          hospital. In addition, CMS expects them to be resurveyed 1 year
                          after their conversion survey.
                          Other surveys take priority over nonaccredited hospital surveys.
                          Between FY 1997 and FY 2003, the number of hospital complaints that
                          required an onsite survey at any hospital, accredited or nonaccredited,
                          grew 79 percent, from 2,079 to 3,721. Responding to complaints and
                          adverse events remains as high a priority among State survey and
                          certification activities as it was in 1997. In CMS’s FY 2003 Budget
                          Call Letter, complaint surveys are given the highest priority after
                          surveys of facilities with legislatively mandated survey cycles. This
                          places complaint surveys at a higher priority than surveys of
                          nonaccredited hospitals.

                          CMS also expects States to allocate resources to surveying facilities
                          with legislatively mandated survey cycles before surveying
                          nonaccredited hospitals. These mandated priorities for Medicare
                          include annual certifications of nursing homes, certifications of home
                          health agencies within 3 years, and validation surveys of accredited
                          hospitals.11 For Medicaid, they include annual certifications of nursing
                          homes and annual certifications of intermediate care facilities for
                          people with mental retardation. Nursing home surveys represent the
                          largest and most predictable part of the States’ survey workload. In
                          1998, States conducted 12,555 nursing home certification surveys. In
                          2001, this grew to just over 15,000 nursing home surveys, a 20 percent
                          increase.12
                          Budget Call Letter Language. CMS committed to establishing a
                          more frequent survey cycle for nonaccredited hospitals so that they
                          would be surveyed with the same frequency that the Joint Commission
                          accredits hospitals. Hospitals accredited by the Joint Commission are
                          surveyed on a 3-year cycle, but CMS did not establish a 3-year survey
                          cycle for nonaccredited hospitals. Rather, the CMS Budget Call Letter
                          since 2001 has called for States to annually survey 33 percent of all
                          nonaccredited hospitals, up from the previous rates of 15 percent in
                          1997 and 11 percent in 2000.13 Though on the surface it might appear
                          that this language is equivalent to a 3-year survey cycle, this is not the
                          case. By repeatedly surveying some hospitals and not surveying
                          others, it may be possible for States to consistently meet the 33 percent
                          annual survey rate for their nonaccredited hospitals but at the same


    OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   7
F   I N D I N G        S


                           time not survey all nonaccredited hospitals within 3 years.
                           Resurveying the same nonaccredited hospitals may be appropriate in
                           some cases to ensure safety and quality. However, the annual survey
                           percentage called for in the Budget Call Letter does not account for
                           such additional surveys in the annual 33 percent determination.




    OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   8
Δ   S U M M A R Y                  




                  SUMMARY
                  Certification and complaint surveys remain the principal way that CMS
                  and State agencies can ascertain whether nonaccredited hospitals meet
                  Federal health, safety, and program standards. While the percent of
                  short-term acute care nonaccredited hospitals surveyed within 3 years
                  has increased, the national annual survey rate has dropped and is now
                  too low to sustain this progress. To ensure that all short-term acute care
                  nonaccredited hospitals are surveyed once every 3 years, at least 33
                  percent of hospitals should be surveyed each year over a 3-year period,
                  assuming that the number of hospitals does not change and no hospital is
                  surveyed more than once.


                  AGENCY COMMENTS
                  CMS agreed that recent survey rates make sustained improvement in the
                  percent of short-term acute care nonaccredited hospitals surveyed within
                  3 years uncertain. It further noted that it has additional survey
                  responsibilities and that resources are limited.

                  CMS identified adjustments it will make in response to our report. First,
                  it will lower the priority of its earlier commitment to survey
                  nonaccredited hospitals once every 3 years. It will also create a new,
                  higher priority goal of surveying nonaccredited hospitals an average of
                  every 4.5 years. Further, it will require States to target certain hospitals
                  that are more likely to have systemic quality problems for more frequent
                  surveys. Finally, it will add a performance standard for States to ensure
                  that the top priority survey frequencies are met. For CMS’s complete
                  comments, see page 11 of this report.


                  OIG RESPONSE
                  We are pleased that CMS agrees with our summary that although the
                  percentage of short-term acute care nonaccredited hospitals surveyed
                  within 3 years has improved, recent national annual survey rates raise
                  concern that the improvement may not be sustainable. However, CMS
                  also proposes changes to the survey commitment it made in response to
                  the OIG’s previous report (that it survey nonaccredited hospitals every
                  3 years, which is the same frequency as that of the Joint Commission).

                  We acknowledge that CMS faces resource limitations. However, we
                  remain concerned that its adjustments could result in some nonaccredited


OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   9
S U M M A R Y


                   hospitals operating without a survey for considerable lengths of time.
                   Because CMS proposes an average of 4.5 years between surveys, by
                   definition the gap between surveys at some nonaccredited hospitals will
                   exceed that length of time, and some could exceed it by a considerable
                   number of years.

                   At the same time we appreciate the role that targeting some hospitals for
                   more frequent surveys can serve in protecting Medicare beneficiaries.
                   Furthermore, we also appreciate CMS’s addition of performance
                   standards for States.




 OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   10
A G   E N     C Y    C O     M M E N T                          S
Δ     A G E N C Y             C O M M E N T S                                                    





 OEI-01-04-00020    CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   11
A G   E N     C Y    C O     M M E N T                          S 





 OEI-01-04-00020    CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   12
A G   E N     C Y    C O     M M E N T                          S 





 OEI-01-04-00020    CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   13
A G   E N     C Y    C O     M M E N T                          S 





 OEI-01-04-00020    CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   14
Δ   A P P E N D I X                      ~            A                  M E T H O D O L O G Y 


                  OSCAR Data. We included short-term acute care nonaccredited hospitals
                  participating in Medicare on the first day of each FY in our analysis. To
                  further refine the list of active nonaccredited short-term acute care
                  hospitals, we removed data on certain hospitals from OSCAR: those
                  listed in OSCAR as leaving the program before the first day of the FY;
                  those that entered the Medicare program after the first day of the
                  FY accredited; those accredited by the Joint Commission; those that were


                     Table 2. Short-term Acute Care Nonaccredited Hospitals
                             Dropped from Dataset

                    Fiscal Year                                            2000                    2001                  2002        2003
                    Original Nonaccredited
                                                                                1,908                    1,908             1,908       1,908
                    Hospital Count
                    Nonaccredited hospitals that
                    left program before 1st day of                                 609                      779             941        1,099
                    given fiscal year
                    Nonaccredited hospitals that
                    entered program after 1st day                                  185                      151             128             96
                    of given fiscal year
                    Joint Commission accredited                                      43                       44                46          47

                    U.S. territories                                                 23                       24                24          23
                    Hospitals that did not bill
                                                                                       4                        2               3            3
                    Medicare for 2 years
                    Final Nonaccredited
                                                                                1,044                       908             766         640
                    Hospital Count
                    Source: OIG analysis of OSCAR and CMS Customer Information System data, 2004.



                  located in U.S. territories; and those that did not bill Medicare for
                  2 consecutive years. (See Table 2 above.)

                  We used FYs to determine the annual number of hospitals and the
                  elapsed time since their most recent surveys. Annual nonaccredited
                  hospital totals for each FY reflect hospitals listed in OSCAR as active on
                  the first day of each FY. Elapsed time since each hospital’s most recent
                  survey reflects the time between October 1st of the relevant FY and the
                  most recent prior survey.

                  We removed hospitals that were listed on the Joint Commission’s Web
                  site as accredited and that went 5 or more years without a survey.

                  We compared our FY lists of active hospitals against CY billing data from
                  the CMS Customer Information System (HCIS). If a hospital on the
                  OSCAR list had not billed Medicare in 2 years, the hospital was removed
                  from the list. We checked our active nonaccredited hospital lists from

OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S                      15
A   P P E N D         I X     ~        A                       M E T H O                           D O L O G                 Y


                      OSCAR for FYs 2000 through 2003 against HCIS billing data for
                      CYs 1998 through 2002.




    OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S       16
Δ   A P P E N D I X                      ~            B            




                  Critical Access Hospitals
                  States can designate critical access hospitals (CAH) as those limited-
                  service hospitals participating in a program developed to strengthen rural
                  health providers. A hospital can convert to CAH status if the State in
                  which it is located has a Medicare Rural Flexibility Program approved by
                  CMS. Under this program, a hospital that meets the State CAH
                  eligibility requirements can convert to CAH status through a State survey
                  or through accreditation.

                  CMS requires CAHs to meet a more limited set of conditions of
                  participation compared to those of hospitals. Upon converting to CAHs,
                  facilities also receive different provider numbers to reflect the CAH
                  designation. CMS requires an initial survey for each hospital that
                  chooses to convert to a CAH. A 1-year follow-up survey will occur to
                  ensure continued compliance with the conditions of participation. After
                  this followup, the CAH will be on the same survey cycle as other
                  nonaccredited hospitals, 33 percent annually.

                  Hospitals that do convert to CAH status receive cost-based
                  reimbursement, as well as other financial incentives. The CAHs are
                  required to enter into agreements with a larger hospital. The program
                  was intended to strengthen rural health care by encouraging the
                  development of stronger networks for the provision of health care in rural
                  areas.




OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   17
Δ      A C K N O W L E D G M E N T S                                                                   




                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections. Other
                  principal Office of Evaluation and Inspections staff who contributed
                  include:

                  Danielle Fletcher, Team Leader
                  Steve Keenan, Lead Analyst

                  Bambi Straw, Program Specialist

                  Tricia Davis, Director, Medicare and Medicaid Branch




OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   18
Δ   E N D         N O T E S                      





                  1    Zhan, Chunliu and Miller, Marlene. Excess Length of Stay, Charges,
                        and Mortality Attributable to Medical Injuries During Hospitalization.
                        Journal of the American Medical Association. 2003; 290:1867-1874.

                  2    Lamb, RM, Studdert, D, Bohmer, R., Berwick, D, and Brennan, T.
                        Hospital Disclosure Practices: Results of a National Survey. Health
                        Affairs. 2003; 22: 73-83.

                  3    Hospital Conditions of Participation: 42 CFR §§ 482.11-482.13;
                       42 CFR §§ 482.21-482.45; 42 CFR §§ 482.51-482.57. These cover basic
                       hospital functions, including staffing and clinical services, as well as
                       administrative concerns, such as compliance with Federal, State, and
                       local laws.

                  4    Pursuant to the Social Security Act, hospitals are deemed to be in
                        compliance with the conditions of participation with either the Joint
                        Commission or American Osteopathy Association accreditation.
                        (42 USC § 1395bb).

                  5    Institute of Medicine. Medicare: A Strategy for Quality Assurance,
                        Volume I. Washington, D.C.: National Academy Press, 1990.

                  6    Hospital Conditions of Participation: 42 CFR §§ 482.11-482.13;
                       42 CFR §§ 482.21-482.45; 42 CFR §§ 482.51-482.57.

                  7    Centers for Medicare & Medicaid Services. State Operations Manual
                        (CMS-Pub. 7).

                  8    Ibid.

                  9    Rural Assistance Center:
                        www.raconline.org/info_guides/hospital/cahfaq.php.

                  10   This total includes both nonaccredited critical access hospitals and
                       accredited critical access hospitals listed in HCIS that billed Medicare
                       in CYs 2000 and 2003.




OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   19
                  11   CMS FY 2004 State Survey and Certification Budget Call Program
                       Requirements and Budget Guidelines.

                  12   Department of Health and Human Services, Office of Inspector
                       General, Office of Evaluation and Inspections. Nursing Home
                       Deficiency Trends and Survey and Certification Process Consistency.
                       OEI-02-01-00600. March 2003.

                  13   The Budget Call Letters do not specify a dollar amount to accomplish
                       this task, nor do States account for the funds by survey type.
                       Therefore, it is difficult to assess if States received sufficient funds to
                       meet this guideline.




OEI-01-04-00020   CMS OVERSIGHT   OF   S H O R T- T E R M A C U T E C A R E N O N A C C R E D I T E D H O S P I TA L S   20
